<html>
<title> - SPACE SITUATIONAL AWARENESS: KEY ISSUES IN AN EVOLVING LANDSCAPE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      SPACE SITUATIONAL AWARENESS:
                  KEY ISSUES IN AN EVOLVING LANDSCAPE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 11, 2020

                               __________

                           Serial No. 116-68

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-617PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------      

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois                VACANCY
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                 HON. KENDRA HORN, Oklahoma, Chairwoman
ZOE LOFGREN, California              BRIAN BABIN, Texas, Ranking Member
AMI BERA, California                 MO BROOKS, Alabama
ED PERLMUTTER, Colorado              BILL POSEY, Florida
DON BEYER, Virginia                  PETE OLSON, Texas
CHARLIE CRIST, Florida               MICHAEL WALTZ, Florida
JENNIFER WEXTON, Virginia
VACANCY
                        
                        C  O  N  T  E  N  T  S

                           February 11, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Kendra Horn, Chairwoman, Subcommittee 
  on Space and Aeronautics, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Brian Babin, Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    11
    Written Statement............................................    13

Statement by Representative Frank D. Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written Statement............................................    15

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    16

                               Witnesses:

Dr. Brian Weeden, Director of Program Planning, Secure World 
  Foundation
    Oral Statement...............................................    18
    Written Statement............................................    20

Mr. Daniel Oltrogge, Co-Director, Space Safety Coalition, Founder 
  and Administrator, Space Safety Coalition, AIAA Space Traffic 
  Management Space Governance Task Force Chairman, Official 
  International Standards Organization (ISO) representative to 
  the United Nations Committee for the Peaceful Use of Outer 
  Space (UNCOPUOS)
    Oral Statement...............................................    43
    Written Statement............................................    45

Professor Joanne Gabrynowicz, Professor Emerita of Space Law, 
  University of Mississippi Law Center
    Oral Statement...............................................    59
    Written Statement............................................    61

Professor Danielle Wood, Director of the Space Enabled Research 
  Group, Assistant Professor of Media Arts & Sciences and 
  Aeronautics & Astronautics, Massachusetts Institute of 
  Technology
    Oral Statement...............................................    73
    Written Statement............................................    75

Dr. Ruth Stilwell, Adjunct Professor, Norwich University, Senior 
  Non-Resident Scholar, Space Policy Institute, George Washington 
  University
    Oral Statement...............................................    82
    Written Statement............................................    84

Discussion.......................................................    99

              Appendix: Answers to Post-Hearing Questions

Dr. Brian Weeden, Director of Program Planning, Secure World 
  Foundation.....................................................   114

Mr. Daniel Oltrogge, Co-Director, Space Safety Coalition, Founder 
  and Administrator, Space Safety Coalition, AIAA Space Traffic 
  Management Space Governance Task Force Chairman, Official 
  International Standards Organization (ISO) representative to 
  the United Nations Committee for the Peaceful Use of Outer 
  Space (UNCOPUOS)...............................................   119

Dr. Ruth Stilwell, Adjunct Professor, Norwich University, Senior 
  Non-Resident Scholar, Space Policy Institute, George Washington 
  University.....................................................   134

 
                      SPACE SITUATIONAL AWARENESS:
                  KEY ISSUES IN AN EVOLVING LANDSCAPE

                              ----------                              


                       TUESDAY, FEBRUARY 11, 2020

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

     The Subcommittee met, pursuant to notice, at 2:40 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Kendra 
Horn [Chairwoman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

     Chairwoman Horn. This hearing will come to order. Without 
objection, the Chair is authorized to declare recess at any 
time. Good afternoon. Thank you for your understanding that we 
were on the floor in votes. Very glad to have you here, and 
welcome to everyone who is here, and to our witnesses. We 
appreciate you being here today. In today's hearing we're going 
to address and--one of the most important and rapidly evolving 
issues facing our ability to operate in space: space 
situational awareness.
     At present the Department of Defense's public catalog 
reports over 20,000 space objects, and with the event of mega 
constellations, and an increasing amount of players, space is 
only going to get more crowded. In fact, a June 2019 assessment 
predicted that more than 20,000 satellites would be launched 
into orbit by 2030 based on announcements of new planned 
commercial constellations. Space situational awareness allows 
us to track and monitor the number and location of space 
objects, how to characterize a space environment, and identify 
any potential collisions and--that could be avoided.
     A good example of the need for better space situational 
awareness occurred just a few weeks ago, when officials were 
closely monitoring two dead satellites with interest and 
concern. The two satellites, one a NASA satellite, and one an 
Air Force experimental spacecraft that was launched in 1967, 
were expected to pass extremely close to each other at speeds 
of 32,000 miles per hour. If these satellites were closer than 
estimated, it could've led to a collision creating thousands of 
pieces of space debris that could have potentially devastating 
impacts on other operating spacecraft. Satellite and spacecraft 
operators need reliable space situational awareness to respond 
to collision threats, because a moving satellite or spacecraft 
involves time, money, and resources, such as fuel, and the 
accuracy of situational awareness data, and the reliability of 
collision warnings are all things that need to be considered.
     The bottom line is that space situational awareness, and 
ensuring the safety and sustainability of the space 
environment, is an issue that affects our civil space program, 
our commercial space sector, and our national security space 
activities, and it's a problem we need to understand and begin 
to address now. Space is a critical part of our infrastructure. 
It enables our Nation's commerce, agricultural productivity, 
banking, and many other aspects of our day to day lives. 
Imagery and data from orbiting weather satellites and precision 
navigational and location data from the Global Positioning 
System, GPS, are essential to countless aspects of national 
security and commerce. Threats to safety and sustainability of 
the space environment would have far reaching implications for 
U.S. Government, commercial, and non-U.S. operations in space, 
and our Nation's reliance on space activities.
     Today's hearing, and the testimony of our witnesses, is a 
critical start to exploring this topic, because while the 
problem of space situational awareness is ever more pressing, 
how we manage it is equally important. This start must include 
a clear and thorough examination of the rapidly evolving nature 
of this issue, the broad range of stakeholders involved, and 
the international and legal aspects of the changing landscape 
of space situational awareness.
     To that end, provisions in the bipartisan H.R. 5666 NASA 
Authorization Act of 2020 begin to scratch the surface on 
improving space situational awareness. Some of the provisions 
include authorizing NASA (National Aeronautics and Space 
Administration) to carry out research and development 
activities on space situational awareness and orbital debris 
mitigation, directing NASA to conduct an SSA (space situational 
awareness) research and technology strategy, and directing the 
administrator, and other relevant Federal agencies, to carry 
out international discussions and capacity building on orbital 
debris removement--removing--excuse me, removal. Let's see if I 
can get that word out. The provisions in H.R. 5666 and today's 
hearing are what I anticipate will be the first steps in a 
series of Subcommittee and Committee activities on space 
situational awareness. Future Subcommittee activities will need 
to consider the technical capabilities, authorities, and roles 
and responsibilities for effective, ongoing space situational 
awareness data and information services.
     In closing, space situational awareness is not a U.S. 
issue. Space knows no national boundaries, and the solutions 
for ensuring sustainability in space must be international. 
However, leadership in this effort should come from the United 
States. We, in collaboration with our international partners, 
must shape the practices and behaviors of space operators we 
expect others to follow in ensuring the safety and 
sustainability of the space environment.
     [The prepared statement of Chairwoman Horn follows:]

    Good afternoon, and welcome to our witnesses. Thank you for 
being here today. In today's hearing we will begin to address 
one of the most pressing and rapidly evolving issues facing our 
ability to operate in space, Space Situational Awareness.
    At present, the Department of Defense's public catalogue 
reports over 20,000 space objects. With the advent of mega 
constellations and an increasing amount of players, space is 
only going to get more crowded. In fact, a June 2019 assessment 
predicted that more than 20,000 satellites would be launched 
into orbit by 2030 based on announcements of new planned 
commercial constellations.
    Space situational awareness allows us to track and monitor 
the number and location of space objects, how to characterize 
the space environment, and identify any potential collisions so 
they can be avoided.
    A good example of the need for space situational awareness 
occurred just a few weeks ago, when officials were closely 
monitoring two dead satellites with interest and concern. The 
two satellites, one a NASA satellite and one a U.S. Air Force 
experimental spacecraft launched in 1967, were expected to pass 
extremely close to each other at speeds of over 32,000 miles 
per hour. If these satellites were closer than estimated, it 
could have led to a collision creating thousands of pieces of 
space debris that could potentially have devastating impacts on 
other operating spacecraft.
    Satellite and spacecraft operators need reliable space 
situational awareness to respond to collision threats. Because 
moving a satellite or spacecraft involves time, money, and 
resources such as spacecraft fuel, the accuracy of the 
situational awareness data and the reliability of collision 
warnings need to be considered.
    The bottom line is that space situational awareness and 
ensuring the safety and sustainability of the space environment 
is an issue that affects our civil space program, our 
commercial space
    sector, and our national security space activities. And it 
is a problem we need to understand and address now.
    Space is part of our infrastructure. It enables our 
Nation's commerce, agricultural productivity, banking, and many 
other aspects of our day-to-day lives. Imagery and data from 
orbiting weather satellites and precision navigational and 
location data from the Global Positioning System (GPS) are 
essential to countless aspects of our national systems and 
commerce. Threats to the safety and sustainability of the space 
environment would have far-reaching implications for U.S. 
government, commercial, and non-U.S. operations in space and 
our Nation's reliance on those space activities.
    Today's hearing and the testimony of our witnesses is a 
critical start to exploring this topic. Because while the 
problem of space situational awareness is ever more pressing, 
how we manage it is equally important.
    This start must include a clear and thorough examination of 
the rapidly evolving nature of this issue, the broad range of 
stakeholders involved, and the international and legal aspects 
of the changing landscape for space situational awareness. To 
that end, provisions in the bipartisan H.R. 5666, the NASA 
Authorization Act of 2020, begin to scratch the surface on 
improving space situational awareness. Some of these provisions 
include:
    <bullet> authorize NASA to carry out research and 
development activities on space situational awareness and 
orbital debris mitigation;
    <bullet> direct NASA to conduct an SSA research and 
technology strategy; and
    <bullet> direct the Administrator, along with other 
relevant Federal agencies, to carry out international 
discussions and capacity-building on orbital debris removal.
    The provisions in H.R. 5666 and today's hearing are what I 
anticipate will be the first steps in a series of Subcommittee 
and Committee activities on space situational awareness. Future 
Subcommittee activities will need to consider the technical 
capabilities, authorities, and roles and responsibilities for 
effective, ongoing space situational awareness data and 
information services.
    In closing, space situational awareness is not a U.S. 
issue; space knows no national boundaries and the solutions for 
ensuring sustainability in space must be international. 
However, leadership in this effort should come from the United 
States. We, in collaboration with our international partners, 
must shape the practices and behaviors of space operators we 
expect others to follow in ensuring the safety and 
sustainability of the space environment.
    Thank you.

     Chairwoman Horn. Thank you, and I now recognize Ranking 
Member Babin for his opening statement.
     Mr. Babin. Thank you, Madam Chair. Great to be here today, 
and thank you to all you witnesses. Today's hearing on space 
situational awareness, or SSA, is a continuation of the 
Committee's longstanding interest in this very topic. We've 
held numerous hearings over the last several years and 
considered two significant pieces of legislation last Congress, 
the American Space Commerce Free Enterprise Act and the 
American Space Safe Act. I urge my colleagues to once again 
please consider these important bills.
     SSA is an important topic for this Committee to consider, 
but we should do so in a very deliberative manner. Near-misses 
in space attract media attention and calls for draconian 
regulations, but overreacting could be just as detrimental to 
our Nation's space enterprise. That being said, there are many 
things we probably all agree on. First, we need better data. 
The Department of Defense currently operates the lion's share 
of sensors that inform our understanding of where objects are 
in orbit, and that will not change. Furthermore, the DOD 
(Department of Defense) does not release all of its data 
because of national security concerns, and that is also 
understandable.
     Other elements of the Federal Government play an important 
role as well. NASA, and more specifically the Johnson Space 
Center, which I proudly represent, and the Goddard Space Flight 
Center, are involved in SSA. They sit side by side with the 
military to monitor satellites and debris in space to ensure 
the International Space Station and science satellites are 
safe. But the information the government and private sector are 
relying on to make sound decisions needs to be improved. 
Uncertainty about current data is too high, which leads to both 
unnecessary alerts, and unpredicted conjunctions.
     The second issue that we should all agree on is that the 
DOD should get out of the SSA business. DOD will always 
maintain sensors for tracking objects in space in order to 
protect our national security, but they are not the appropriate 
agency to interact with the private sector, or with our 
international partners. For this reason, the administration 
proposed that the Department of Commerce serve as the 
government's commercial storefront, if you will, for SSA. 
Commerce can then partner with the private sector, which is 
something they do well. Commerce already houses the National 
Institutes of Standards and Technology, the world leader in 
developing standards, manages export controls for satellite 
technology through the Bureau of Industry and Security, and 
coordinates spectrum issues through the National 
Telecommunications and Information Administration.
     Commerce also houses the National Weather Service that 
conducts forecasts and issues alerts to protect life and 
property, operates a fleet of weather satellites under NOAA 
(National Oceanic and Atmospheric Administration), and is the 
only agency that has statutory authority to license activity in 
space, space-based commercial remote sensing. They also have a 
history of providing a light touch with emerging industries. 
Commerce stood up the Internet Corporation for Assigned Names 
and Numbers, or ICANN, through a contract with a nonprofit 
organization. ICANN was the organization responsible for 
developing policies, coordinating best practices, and managing 
the processes that led to a stable Internet. We've already seen 
the space community adopt a similar approach on our own.
     Several years ago operators founded the Space Data 
Association to share information and to improve safety. The 
Space Data Association demonstrates how the private sector can 
collaborate and innovate. More recently, the Space Safety 
Coalition was established to provide similar capabilities for 
operators in low Earth orbit. Companies are also providing data 
and services on the open market. They are developing cost-
effective, timely, and accurate SSA data, often relying on off-
the-shelf and non-military technologies. In some cases, 
commercial capabilities are superior to DOD's. This is good 
news for America, and for the global community, and we should 
help those nascent industries to grow.
     The third issue that we should all agree on is that we 
need to develop better standards and better practices. Rather 
than imposing a top-down regulatory burden on an emerging 
sector, we should adopt a crawl, walk, run approach. In this 
regard, the International Agency for Space Debris Coordination 
Committee, IADC, is an interesting case study. NASA developed 
its own orbital debris guidelines that were eventually adopted 
by the entire Federal Government, and then accepted by most 
space-faring nations, as part of the IADC process. The 
guidelines are consensus-based principles that inform 
spacecraft development and operations, and could form the basis 
for developing rules of the road going forward. This could be 
augmented by contributions from the insurance industry, similar 
to the role they played in the early days of maritime shipping. 
I believe that we can all work together, and this will be to 
ensure space remains a safe environment for future generations 
without stifling industry with burdensome regulations before 
they ever launch.
     I want to thank our witnesses for appearing today, and I 
yield back, Madam Chair.
     [The prepared statement of Mr. Babin follows:]

    Today's hearing on space situational awareness, or ``SSA,'' 
is a continuation of the Committee's longstanding interest in 
the topic. We've held numerous hearings over the last several 
years and considered two significant pieces of legislation last 
Congress: the American Space Commerce Free Enterprise Act and 
the American Space SAFE Act. I urge my colleagues to once again 
consider these important bills. SSA is an important topic for 
this Committee to consider, but we should do so in a 
deliberative manner. Near-misses in space attract media 
attention and calls for draconian regulations, but overreacting 
could be just as detrimental to our Nation's space enterprise.
    That being said, there are many things we probably all 
agree on.
    First, we need better data. The Department of Defense (DOD) 
currently operates the lion's share of sensors that inform our 
understanding of where objects are in orbit. That won't change. 
Furthermore, the DoD does not release all of its data because 
of national security concerns. This is understandable. Other 
elements of the federal government play an important role as 
well. NASA, and more specifically the Johnson Space Center, 
which I proudly represent, and the Goddard Space Flight Center, 
are involved in SSA. They sit side-by-side with the military to 
monitor satellites and debris in space to ensure the 
International Space Station and science satellites are safe.
    But the information the government and private sector are 
relying on to make sound decisions needs to be improved. 
Uncertainty about current data is too high, which leads to both 
unnecessary alerts and unpredicted conjunctions.
    The second issue that we should all agree on is that the 
DoD should get out of the SSA business. DoD will always 
maintain sensors for tracking objects in space in order to 
protect national security, but they are not the appropriate 
agency to interact with the private sector or international 
partners. For this reason, the Administration proposed that the 
Department of Commerce serve as the government's ``commercial 
storefront'' for SSA. Commerce can then partner with the 
private sector, something they do well.
    Commerce already houses the National Institutes of Standard 
and Technology, the world-leader in developing standards, 
manages export controls for satellite technology through the 
Bureau of Industry and Security, and coordinates spectrum 
issues through the National Telecommunications and Information 
Administration. Commerce also houses the National Weather 
Service that conducts forecasts and issues alerts to protect 
life and property; operates a fleet of weather satellites under 
NOAA; and is the only agency that has statutory authority to 
license activity in space--space-based commercial remote 
sensing. They also have a history of providing a lighttouch 
with emerging industries.
    Commerce stood up the Internet Corporation for Assigned 
Names and Numbers (ICANN) through a contract with a non-profit 
organization. ICANN was the organization responsible for 
developing policies, coordinating best practices, and managing 
the processes that led to a stable internet.
    We've already seen the space community adopt a similar 
approach on their own. Several years ago, operators founded the 
Space Data Association to share information and improve safety. 
The Space Data Association demonstrates how the private sector 
can collaborate and innovate. More recently, the Space Safety 
Coalition was established to provide similar capabilities for 
operators in low Earth orbit.
    Companies are also providing data and services on the open 
market. They are developing cost effective, timely, and 
accurate SSA data, often relying on off-the-shelf and non-
military technologies. In some cases, commercial capabilities 
are superior to DoD's. This is good news for America and for 
the global community, and we should help these nascent 
industries to grow.
    The third issue we should all agree on is that we need to 
develop better standards and practices. Rather than imposing a 
top-down regulatory burden on an emerging sector, we should 
adopt a crawl, walk, run approach. In this regard, the 
International Agency Space Debris Coordination Committee (IADC) 
is an interesting case study. NASA developed its own orbital 
debris guidelines that were eventually adopted by the entire 
federal government and then accepted by most spacefaring 
nations as part of the IADC process. The guidelines are 
consensus-based principles that inform spacecraft development 
and operations, and could form the basis for developing rules 
of the road going forward. This could be augmented by 
contributions from the insurance industry similar to the role 
they played in the early days of maritime shipping.
    I believe we can all work together to ensure space remains 
a safe environment for future generations without stifling 
industry with burdensome regulations before they ever launch. I 
want to thank our witnesses for appearing today, and yield back 
my time.

     Chairwoman Horn. Thank you, Mr. Babin. The Chair now 
recognizes the Ranking Member of the Full Committee, Mr. Lucas, 
for an opening statement.
     Mr. Lucas. Thank you, Chairwoman Horn, for holding this 
timely hearing on the situational awareness in space. Only two 
weeks ago we saw the importance of this issue, as two defunct 
Federal satellites, each traveling at 17,500 miles per hour, 
came dangerously close to each other 560 miles above 
Pittsburgh. While there was no threat to those on the ground, 
the collision in space could've been significant because the 
debris would impact other satellites, and potentially even 
threaten astronauts aboard the International Space Station, 
depending on the orbit. The satellites ultimately passed each 
other without incident, but there were widely varies estimates 
of their chances of colliding, ranging from one in 100 to one 
in 1,000.
     Limitations on tracking data and the satellites' exact 
characteristics and orientation leads to this kind of 
uncertainty, which is problematic. For instance, most of the 
data on objects in space comes from the Department of Defense. 
While DOD provides data to the international community and the 
private sector, national security concerns limit the fidelity 
of the data it can release. The private sector, however, is 
emerging as an important partner in this equation. Companies 
are beginning to provide not only visualization products and 
services, but also sensor data. Furthermore, companies that 
operate satellites typically have better data on their 
satellites than anyone else. Nonprofit groups, like the Space 
Data Association, and the newly formed Space Safety Coalition, 
are partnering with government agencies, commercial satellite 
operators, space data providers, and the international 
community to provide solutions to the challenge of space 
situational awareness, space debris mitigation, and space 
traffic management.
     The Trump Administration is also paying attention. Vice 
President Pence, and the National Space Council, released two 
important policies related to the topic before us today. Space 
Policy Directive No. 2 calls for streamlining space 
regulations, and Space Policy Directive 3 calls for a 
coordinated space traffic management effort to ensure safety, 
stability, and innovation in space. The principles in these 
policies track directly with the positions this Committee has 
advocated in numerous hearings over the last decade. 
Furthermore, this Committee passed two critical pieces of 
legislation out of the House in the previous Congress that 
related to space situational awareness and space traffic 
management, the American Space Commerce Free Enterprise Act, 
sponsored by Ranking Member Babin, and the American Space Safe 
Management Act, would go a long way to advancing the 
development of standards, best practices, and rules of the road 
in a way that would not stifle the private sector.
     The Administration also proposed giving the Department of 
Commerce, rather than the Department of Defense, the 
responsibility to issue notices of potential collisions. DOD 
would prefer to focus its efforts on supporting our troops and 
national security. The Department of Commerce already has 
experience dealing with the private sector to assist commerce. 
They also license commercial remote sensing satellite 
operators, operate a fleet of government weather satellites, 
protect critical technologies from export, provide safety 
notifications and forecasting for weather, and understand how 
to manage technology in a manner that fosters innovation. The 
Office of Space Commerce and the Department of Commerce is 
already up and running, and has served a similar function, 
coordinating the interactions with the U.S. Government, 
international partners, and the private sector related to 
global positioning policies as the host of the Position, 
Navigation, and Timing National Coordination Office.
     Unfortunately, our friends in the Minority over on the 
Senate Appropriations side are preventing the Department of 
Commerce from reorganizing in a way that can advance space 
safety. If we want to seriously address the problem of tracking 
space debris, advance our space object tracking capacities, and 
develop best practices and rules of the road for operating in 
space, the first step is allowing the Office of Space Commerce 
to be the commercial storefront for space situational awareness 
data. The government can then partner with the private sector 
and international community to share data and establish 
consensus-based norms of behavior. This will go a long way to 
ensuring Earth orbit remains useful for future generations.
     I look forward to working with my colleagues here on the 
Committee, as well as Appropriations, the Administration, and 
the private sector to advance common sense policy solutions 
related to space object tracking. Thank you, and I yield back 
the balance of my time, Madam Chairman.
     [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Horn, for holding this timely hearing 
on situational awareness in space. Only two weeks ago we saw 
the importance of this issue, as two defunct government 
satellites, each traveling at roughly 17,500 miles per hour, 
came dangerously close to each other 560 miles above 
Pittsburgh. While there was no threat to those on the ground, a 
collision in space could be significant because the debris 
could impact other satellites or even potentially threaten 
astronauts aboard the International Space Station depending on 
the orbit.
    The satellites ultimately passed each other without 
incident, but there were widely varied estimates of their 
chances of colliding--ranging from 1 in 100 to 1 in 1000. 
Limitations on tracking data and the satellites' exact 
characteristics and orientation lead to this kind of 
uncertainty, which is problematic. For instance, most of the 
data on objects in space comes from the Department of Defense 
(DOD). While the DoD provides data to the international 
community and the private sector, national security concerns 
limit the fidelity of the data it can release.
    The private sector, however, is emerging as an important 
partner in this equation. Companies are beginning to provide 
not only visualization products and services, but also sensor 
data. Furthermore, companies that operate satellites typically 
have better data on their satellites than anyone else. Non-
profit groups like the Space Data Association and the newly 
formed Space Safety Coalition are partnering with government 
agencies, commercial satellite operators, space data providers, 
and the international community to provide solutions to the 
challenge of space situational awareness, space debris 
mitigation, and space traffic management.
    The Trump Administration is also paying attention. Vice 
President Pence and the National Space Council released two 
important policies related to the topic before us today. Space 
Policy Directive 2 calls for streamlining space regulations and 
Space Policy Directive 3 calls for a coordinated space traffic 
management effort to ensure safety, stability, and innovation 
in space.
    The principles in these policies track directly with the 
positions this Committee has advocated for in numerous hearings 
over the last decade. Furthermore, this Committee passed two 
critical pieces of legislation out of the House in the previous 
Congress that relate to space situational awareness and space 
traffic management. The American Space Commerce Free Enterprise 
Act, sponsored by Ranking Member Babin, and the American Space 
SAFE Management Act, would go a long way to advancing the 
development of standards, best practices, and rules of the road 
in a way that would not stifle the private sector.
    The Administration also proposed giving the Department of 
Commerce, rather than the Department of Defense, the 
responsibility to issue notices of potential collisions. DoD 
would prefer to focus its efforts on supporting our troops and 
national security. The Department of Commerce already has 
experience dealing with the private sector to assist commerce. 
They also license commercial remote sensing satellite 
operators; operate a fleet of government weather satellites; 
protect critical technologies from export; provide safety 
notifications and forecasting for weather; and understand how 
to manage technology in a manner that fosters innovation.
    The Office of Space Commerce at the Department of Commerce 
is already up and running and has served a similar function 
coordinating interactions with the U.S. government, 
international partners, and the private sector related to 
Global Positioning System policies as the host of the Position, 
Navigation, and Timing National Coordination Office.
    Unfortunately, Democratic Senate Appropriators are 
preventing the Department of Commerce from reorganizing in a 
way that can advance space safety. If we want to seriously 
address the problem of tracking space debris, advance our space 
object tracking capabilities, and develop best practices and 
rules of the road for operating in space, the first step is 
allowing the Office of Space Commerce to be the ``commercial 
storefront'' for space situational awareness data. The 
government can then partner with the private sector and 
international community to share data and establish consensus-
based norms of behavior. This will go a long way to ensuring 
Earth orbit remains useful for future generations.
    I look forward to working with my colleagues here on the 
Committee, as well as Appropriators, the Administration, and 
the private sector to advance common-sense policy solutions 
related to space object tracking.
    Thank you and I yield back the balance of my time.

    Chairwoman Horn. Thank you, Mr. Lucas. If there are Members 
who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    [The prepared statement of Chairwoman Johnson follows:]

    Thank you, Chairwoman Horn, for holding today's hearing on 
space situational awareness, and thank you to each of our 
witnesses for your thoughtful prepared testimony.
    During the 116th Congress, the Committee on Science, Space, 
and Technology has been focusing on a number of complex issues, 
including artificial intelligence, cybersecurity, climate 
change, and energy innovation to name just a few. The oversight 
we have been conducting has helped inform our Committee's 
consideration of potential policy options in each of those 
areas. Today, the Space Subcommittee will be examining another 
multifaceted and complex issue-namely the sustainability of the 
space environment in which we and other nations carry out our 
space activities.
    Outer space is vast. However, some of the orbits around 
Earth are becoming crowded, and spacecraft are becoming 
increasingly vulnerable to impacts from space debris. The 
dangers from space debris are coming at a time when nations are 
increasingly looking to space to support their national 
objectives, whether they be scientific, commercial, or national 
security-related.
    Space situational awareness--SSA--involves collecting 
location data on space objects, processing that data to 
characterize the space environment, and developing techniques 
to support satellite operators so that they can avoid potential 
collisions in space. SSA provides the foundation for any 
technical or potential future regulatory measures that might be 
needed to ensure safe operations in space.
    Of course, because the problem is global in nature, it will 
be essential that the United States work collaboratively with 
our international partners if we are to achieve a sustainable 
approach to dealing with the challenge posed by space debris.
    There are many facets of the SSA problem that will need to 
be addressed. Namely, what technical capabilities are needed? 
How will government, commercial, and academic entities 
contribute to and share space situational awareness data and 
information? What legal and policy questions will need to be 
considered?
    I hope that today's hearing will provide us with a good 
introduction to the challenges and opportunities associated 
with space situational awareness. I also hope to hear from our 
witnesses about what issues the Committee should prioritize as 
it begins its work on this important issue.
    Our Committee's work in this complex and important area is 
just beginning today, and I anticipate that we will be carrying 
out additional hearings and oversight on space situational 
awareness, orbital debris, and space traffic management over 
the remainder of this Congress.
    I again want to commend Chairwoman Horn and Ranking Member 
Babin for holding today's hearing, and with that I yield back.

     Chairwoman Horn. At this time I'd like to introduce our 
witnesses. Our first witness today is Dr. Brian Weeden, 
Director of Program Planning for Secure World Foundation, which 
promotes cooperative solutions for space sustainability and 
peaceful uses of outer space. Dr. Weeden served 9 years as an 
officer in the United States Air Force, working in space and 
ICBM operations, and he directed the Orbital Analyst Training 
Program that improved space situational awareness as a part of 
the U.S. Strategic Command's Joint Space Operation Center. Dr. 
Weeden received a Bachelor of Science Degree in Electrical 
Engineering from Clarkson University, a Master of Science 
Degree in Space Studies from the University of North Dakota, 
and a Doctorate in Public Policy and Public Administration in 
the field of Science and Technology Policy from George 
Washington University. Welcome, Dr. Weeden.
     Our next witness is Mr. Dan Oltrogge. Did I do it right? 
OK. I've been practicing, so I'm going to keep practicing. 
Oltrogge is the founder and administrator of the Space Safety 
Coalition, which leads the Best Practices for Sustainability of 
Space Operations Initiative. Mr. Oltrogge is the chair of the 
American Institute of Aeronautics and Astronautics', AIAA, 
Space Traffic Management Space Governance Task Force, and he 
serves as the International Standards Organization 
representative to the U.N. Committee for the Peaceful Uses of 
Outer Space. Mr. Oltrogge received a Bachelor of Science Degree 
in Aerospace, Aeronautical, and Astronautical Engineering from 
Iowa State University, and a Master of Science Degree in 
Aerospace Engineering and Astrodynamics from the University of 
Southern California. Welcome.
     Our next witness is Professor Joanne Irene Gabrynowicz, 
Professor Emerita of Space Law, and Director Emerita of the 
National Center for Remote Sensing, Air and Space Law at the 
University of Mississippi Law Center. Professor Gabrynowicz is 
also Editor-In-Chief Emerita of the Journal for Space Law. In 
addition, she is the Director of the International Institute of 
Space Law, IISL, and is an official observer for the IISL to 
the U.N. Committee on the Peaceful Uses of Outer Space. She 
received her Bachelor's from City University of New York, and 
earned her Juris Doctorate from the Cardoza School of Law. 
Professor Gabrynowicz has also testified before the 
Subcommittee previously. Welcome back, Professor Gabrynowicz.
     Our next witness today is Professor Danielle Wood, 
Assistant Professor in Media Arts and Sciences in the 
Department of Aeronautics and Astronautics at the Massachusetts 
Institute of Technology. Professor Wood also leads the Space 
Enabled Research Group within MIT Media Lab, which harnesses 
space technology to address development challenges around the 
world. Prior to serving as faculty at MIT (Massachusetts 
Institute of Technology), Professor Wood held positions at NASA 
headquarters, NASA Goddard Space Flight Center, Aerospace 
Corporation, Johns Hopkins University, and the United Nations 
Office of Outer Space Affairs. She received a Bachelor of 
Science Degree in Aerospace Engineering, a Master of Science 
Degree in Technology Policy, and a Doctorate in Engineering 
Systems from MIT. Welcome, Dr. Wood.
     Our next witness is Dr. Ruth Stilwell, Executive Director 
of Aerospace Policy Solutions, LLC, an adjunct professor at 
Norwich University, and a senior non-resident scholar at the 
Space Policy Institute of George Washington University. A 25-
year air traffic controller, Dr. Stilwell now manages a 
consulting firm offering strategic advice and research services 
for integration of aviation and commercial space operations. 
Among other areas, Dr. Stilwell also serves on the Technical 
Committee on Human Space Flight Safety of the International 
Association for the Advancement of Space Safety, which is 
developing safety guidelines for human commercial space flight. 
Dr. Stilwell received a Bachelor's in Labor Studies at the 
National Labor College, and she earned a Master's in Public 
Administration, and a Doctorate in Public Administration, from 
the University of Baltimore. Welcome, Dr. Stilwell.
     As our witnesses, you should know you will each have 5 
minutes for your spoken testimony. Your written testimony will 
be included in the record for this hearing. When you have 
completed your spoken testimony, we will begin with questions. 
Each Member will have 5 minutes to question the panel, and we 
will start with Dr. Weeden. Dr. Weeden?

                 TESTIMONY OF DR. BRIAN WEEDEN,

                 DIRECTOR OF PROGRAM PLANNING,

                    SECURE WORLD FOUNDATION

     Dr. Weeden. Madam Chair, Ranking Member, other 
distinguished Members of the Subcommittee, thank you for the 
opportunity to testify today on this important issue. Secure 
World Foundation is dedicated to ensuring the long-term 
sustainability of space activities so that all of humanity can 
continue to use space for benefits on Earth. Space situational 
awareness is the foundation of space sustainability, and 
working to improve SSA capabilities for all space actors is a 
major part of our work.
     As was referenced earlier, on January 29, 2020, two dead 
U.S. Government satellites nearly collided about 560 miles 
above the city of Pittsburgh. The last actual on-orbit 
collision between two satellites occurred on February 10, 2009, 
when a dead Russian Cosmos satellite collided with an active 
U.S. Iridium commercial communication satellite. The Iridium-
Cosmos collision generated nearly 2,000 tracked pieces of 
orbital debris bigger than a softball, most of which will 
remain on orbit for decades to come. Thankfully, in this latest 
incident, both objects passed by each other harmlessly, at an 
estimate distance of about 60 feet.
     Comparing the two events highlights what has and has not 
changed with SSA in the intervening 11 years. The biggest 
change is the availability of SSA data, and who is providing 
it. In 2009 the only public source of data on close approaches 
between space objects was the U.S. military's Joint Space 
Operations Center. By contrast, the first public notice of the 
incident this past January came from a tweet sent 3 days before 
the event by an American commercial SSA company, LeoLabs, which 
operates its own network of ground-based tracking radars that 
feed into its own catalog of space objects.
     What has not changed is that we cannot yet predict whether 
two objects in orbit will or will not collide. We can only give 
an estimated probability of collision, which may change over 
time. In 2009 the Iridium-Cosmos collision served as a wakeup 
call for the entire space community to the threat that orbital 
debris poses to active satellites, as well as the importance of 
SSA for detecting and avoiding future collisions. Eleven years 
later, this most recent incident should serve as an alarm bell 
that there's a lot more still to do.
     As a result of the Iridium-Cosmos collision, U.S. policy 
was changed in 2010 to broaden the SSA mission of the U.S. Air 
Force to provide close approach warnings to all satellite 
operators globally. This was an important step that has 
improved the situation, but only so much. SSA capabilities 
today are dangerously insufficient to deal with the emerging 
challenges from the growing number of space actors, large 
constellations, orbital debris hazards, and a more complex and 
competitive geopolitical environment.
     The key policy issue still to be resolved is the 
transition of responsibilities for civil SSA from the 
Department of Defense to another agency as the first step in 
establishing a national space traffic management regime. The 
executive branch has worked on this issue for 8 years, across 
both the Obama and Trump Administrations, resulting in Space 
Policy Directive 3, issued by the Trump Administration in June 
2018. However, Congress has not yet enacted the required 
changes in authorities or budget to implement SPD-3, or an 
alternative, and thus the issue hangs in limbo.
     Beyond SSA itself, there is the broader issue of 
implementing a holistic strategy for ensuring the long-term 
sustainability of space in accordance with existing national 
policy direction. While the United States has made limited 
progress on developing orbital debris mitigation standards, it 
has made zero progress on developing capabilities to remove the 
existing debris, let alone actually doing so. Neither have made 
much progress on implementing a space traffic management 
regime, enforcing debris mitigation standards, or modernizing 
the oversight and licensing of commercial space activities, all 
of which relies on improved SSA capabilities.
     It is critical that Congress act on this issue now. 
Improving SSA is fundamental to everything the United States 
does in space, and all the benefits we derive from space. This 
includes protecting human exploration in science, ensuring 
critical weather and climate data, protecting important 
national security capabilities, and enabling economic growth 
and innovation in the commercial space sector. Taking the 
appropriate policy steps on civil SSA will enable a giant step 
toward ensuring the long-term sustainability of space 
activities for the United States, and that humanity can 
continue to use space for benefits on Earth. Thank you for your 
time, and I welcome your questions.
     [The prepared statement of Dr. Weeden follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Horn. Thank you, Dr. Weeden. Mr.--I'm going to 
get it right--Oltrogge. Thank you. I will have it down, because 
I've got Professor Gabrynowicz, so next time you're here, I'm 
going to have it down pat. You're recognized.

             TESTIMONY OF Mr. DANIEL OLTROGGE, AIAA

           SPACE TRAFFIC MANAGEMENT SPACE GOVERNANCE

          TASK FORCE CHAIR, FOUNDER AND ADMINISTRATOR

                SPACE SAFETY COALITION, OFFICIAL

           INTERNATIONAL STANDARDS ORGANIZATION (ISO)

              REPRESENTATIVE TO THE UNITED NATIONS

                 COMMITTEE FOR THE PEACEFUL USE

                   OF OUTER SPACE (UNCOPUOS)

     Mr. Oltrogge. Madam Chair Horn--Chairwoman Horn, Ranking 
Member Babin, and distinguished Members of the Subcommittee, 
thank you for the opportunity to testify today on space 
situational awareness, or SSA, and space traffic management, or 
STM. Responsible SSA and STM are essential to maintaining the 
long-term sustainability of space activities, space governance, 
and national security.
     Why are we here today? It's because the many benefits we 
derive from space, and the welfare of our astronauts, 
spacecraft, and commercial space industry are all on the line. 
Today's U.S. flight safety capabilities are insufficient. They 
produce too many false alarms to be considered decision 
quality, and the vast majority of lethal objects remain 
untracked. New capabilities are set to track these small 
objects, substantially increasing the number of collision 
warnings. In addition, the U.S. commercial space industry has 
filed applications for 58,000 new spacecraft into orbit in the 
next 10 years, 15 times more than any other country, and eight 
times more than all other countries combined. The U.S. is all 
in on the bow wave of large constellation initiatives, an 
investment that will lead to socioeconomic and technological 
progress in agriculture, banking, navigation, communications, 
and Earth remote sensing. So we must ensure the sustainability 
of space as a vital resource.
     There are many definitions for SSA and STM, as described 
in my written testimony. For this session, I will use these 
definitions shown. SSA and STM can help avert situations like 
the near collision of two dead spacecraft last month, which 
could've produced 12,000 new pieces of space debris. We need to 
make such headlines go away. Such a large-scale collision would 
reverberate through our burgeoning $1 trillion to $3 trillion 
space economy, sowing uncertainty and damaging growth.
    Left unchecked, the situation may worsen to a cycle of 
cascading collisions known as the Kessler Syndrome, rendering 
the use of space unsustainable. If we surpass this ecological 
threshold, there is no return. We've been lucky so far, but the 
clock is ticking.
     SSA helps lower collision risks. Observing space objects, 
fusing data, and solving orbits, and detecting and 
characterizing collision threats enable spacecraft operators to 
mitigate the threat.
    Today's congested environment challenges operators to 
understand which conjunctions are too close. The number of 
false alarms and missed alerts is overwhelming spacecraft 
operators to the point that they sometimes ignore the warning 
and go home, wondering if they will have a job the next day--
true story. The number of objects in space requiring tracking 
is increasing, a trend spurred by the disastrous Chinese ASAT 
tests in 2007, and the Iridium-Cosmos collision in 2009.
    Today we're only tracking an estimate 4 percent of space 
debris that can terminate a spacecraft mission. This, along 
with outdated space tracking algorithms, resulting 
inaccuracies, insufficient quality control, and a lack of 
transparency degrade flight safety.
     You may be familiar with the space debris situation 
through the enthralling, but inaccurate, movie ``Gravity.'' 
Like the film, the depiction at the upper right seems to 
indicate that spacecraft cannot possibly survive. In actuality, 
the density of space debris does continue to increase, 
presenting significant challenges to space sustainability.
    I've described our legacy of space debris that New Space 
large constellations now inherit, and need to operate in. 
Applications have now been filed to build, launch, and operate 
over 58,000 more spacecraft within the next 10 years alone. 
While acknowledging that only a portion of these applications 
will yield operational spacecraft, we can still expect the 
active spacecraft population to become four to ten times larger 
within the next decade. This year alone, the active space 
population is on track to double. As depicted here, large 
constellations will experience millions of close approaches, 
requiring thousands of avoidance maneuvers.
     You can think of SSA as a functional chain. The collective 
performance of this entire chain determines the actionability 
of the SSA information. The old adage that a chain is no 
stronger than its weakest link was in play in the 2009 Iridium-
Cosmos collision, where a planned maneuver was missed, 
resulting in a miscalculated collision risk more than a 
trillion, trillion, trillion off.
    These are the basic qualities of viable SSA and STM 
systems. Paired with advanced astrodynamics algorithms, 
actionable notifications of impending threats can be provided.
     In closing, U.S. SSA and STM services are failing to 
address global needs at the same time as the commercial space 
sector is experiencing explosive growth. The lack of a 
cohesive, properly resourced U.S. Space Traffic Management 
Program places the U.S. at risk of losing this vital initiative 
to other countries. To avert this, I recommend that you work 
together to take the six actions listed here. These actions 
cannot be accomplished without the full support of Congress. 
The long-term sustainability of the space environment, the rich 
set of socioeconomic benefits of operating in space, and the 
success of the U.S. commercial space industry are all at risk. 
The time for action is now. Thank you for your attention.
     [The prepared statement of Mr. Oltrogge follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Horn. Thank you, Mr. Oltrogge. Professor 
Gabrynowicz?

           TESTIMONY OF PROFESSOR JOANNE GABRYNOWICZ,

                PROFESSOR EMERITA OF SPACE LAW,

              UNIVERSITY OF MISSISSIPPI LAW CENTER

     Ms. Gabrynowicz. Chairwoman--excuse me. Chairwoman Horn, 
Ranking Member Babin, Members of the Committee, thank you for 
inviting me here. I was asked to provide a brief overview of 
the law applicable to SSA, and today that is an amalgam of 
treaties, contracts, and national law and regulation. A key 
element of SSA is orbital debris, so I will address the legal 
regimes and available juridical fora regarding debris. I will 
conclude by raising two crucial SSA issues for which new law is 
needed, the need to formulate international agreements to 
establish internationally recognized norms, and to prevent 
small conflicts from escalating, and two, the--addressing the 
gap in United States regulations regarding U.S. private sector 
activities on orbit.
     Space is governed by an inter-related collection of space 
specific treaties. The first, and most important, of these is 
the Outer Space Treaty and it recognizes that space use and 
exploration shall be in accordance with international law, 
including the Charter of the U.N. This means that space is also 
governed by public and private international law, and includes 
international humanitarian law. The Outer Space Treaty also 
provides that a State Party has the obligation to avoid harmful 
contamination and harmful interference with the use of space.
     Regarding SSA and debris, the Liability Convention is of 
particular relevance. It codifies two liability regimes, a 
fault-based negligence regime which is applicable in space and 
an absolute liability regime for harm caused on Earth and to 
aircraft in flight. Excuse me. An additional set of guidance, 
but non-treaty based, is the guidelines provided by the Inter-
Agency Space Debris Coordination Committee. It provides 
guidance regarding orbital debris, and contains a set of 
voluntary orbital debris mitigation guidelines which were 
adopted by the U.N. General Assembly. They are not legally 
binding, but they do provide persuasive authority for 
addressing orbital debris mitigation.
     At the national level, orbital debris is slowly evolving 
as a matter of law. It is specifically addressed in the 
national laws of Austria, China, France, Japan, and in the 
United States. In the United States, orbital debris is 
addressed as part of licensing space-based applications. There 
are a number of different available juridical fora for the 
adjudication of conflicts regarding debris and SSA. They 
include diplomatic channels, which is the first and preferred 
option, a Claims Commission that can be established under the 
Liability Convention, as well as the courts, and tribunals, and 
agencies of launching States. And also, of course, if there are 
any additional agreements between and among States outside of 
the treaty regime that is applicable to conflict resolution.
     Recently, formal arbitration has been added to the roster 
of conflict resolution options through the Permanent Court of 
Arbitration. However, as a practical matter, these are unlikely 
to be used either by nation-states or governmental space 
actors. A juridical forum of any kind means rendering control 
of the situation to the forum. Nation-states are sovereigns, 
and giving up control is anathema to their nation--nature. 
Additionally, the possibility of exposing acutely sensitive 
technological and operational information is antithetical to 
some national interests.
     There are two issues for which law is still needed for 
SSA. At the international level, we need agreements to 
establish internationally recognized norms, and to prevent 
small conflicts from escalating into large conflicts. There is 
little political will currently for making new legally binding 
treaties, and recent action indicates there may be declining 
support for non-binding options. Nonetheless, new agreements, 
both binding and non-binding, are needed. The issues that must 
be addressed include the balancing of national security, value 
of data, and the need to share data, applicable conflict 
mechanisms, legitimacy of non-governmental data providers, 
mistrust issues between governmental and non-governmental 
providers, and the commercialization of SSA data.
     At the national level there exists a regulatory gap in the 
United States regulations. Currently there are no Federal--
there's no Federal agency that has the jurisdiction to 
authorize and continually supervise private sector on-orbit 
activities, and this is occurring at the same time that the 
United States is planning to increase its reliance on the 
private sector. In 2015 the Congress required a report from the 
Office of Science and Technology Policy on how the United 
States could authorize such private sector activities, and OSTP 
(Office of Science and Technology Policy) proposed legislation 
that would establish an inter-agency process. To date, due to 
political forces, this has not yet been done.
     [The prepared statement of Ms. Gabrynowicz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Horn. Thank you, Dr. Gabrynowicz. Dr. Wood, 
you're recognized.

              TESTIMONY OF PROFESSOR DANIELLE WOOD,

         DIRECTOR OF THE SPACE ENABLED RESEARCH GROUP,

          ASSISTANT PROFESSOR OF MEDIA ARTS & SCIENCES

                AND AERONAUTICS & ASTRONAUTICS,

             MASSACHUSETTS INSTITUTE OF TECHNOLOGY

     Ms. Wood. Thank you, Chairwoman Horn, and I express my 
thanks to Ranking Member Babin, and to the Members of all the 
Subcommittee and the full Committee. All of us have the 
privilege and responsibility to lay a foundation for a 
sustainable space environment, to make it a safe environment, 
to perform missions without undue risk of harm. In one sense, 
we are here because space activity brings tremendous social, 
economic, and cultural value on Earth. I lead a research group 
called Space Enabled at the MIT Media Lab. Our mission is to 
reduce barriers to applying space technology in support of a 
thriving society on Earth, and to work toward space 
sustainability.
     In a recent keynote speech before the American Institute 
of Aeronautics and Astronautics, I highlighted the ways that 
the aerospace industry must contribute to global challenges, 
such as climate change, global economic inequality, human 
migration, and public health. Space is the perfect vantage 
point from which we watch our home planet of Earth. As a former 
member of NASA's Earth Science Team at Goddard Space Flight 
Center, I advocate for the societal value of NASA's fleet of 
Earth observation satellites. It is clear from satellite data 
that our civilization is facing several inter-related crises of 
sustainability that span our oceans, our lands, our 
atmospheres, our glaciers, and Earth's orbit. In each of these 
zones, our economic activities deposit unmanaged populations of 
waste. Carbon dioxide in our atmosphere, plastics in our ocean, 
and objects in Earth's orbit. Our civilization has the 
opportunity right now to review how we will manage this waste, 
and create a sustainable future.
     The United States has a leadership role to play in 
response to this integrated crisis, or opportunity, of global 
sustainability on land, in the ocean, in the atmosphere, and in 
space. Today I'd like to recommend several policy actions. No. 
1, the U.S. Government should adopt a commitment to space 
sustainability as a principle driving space activity. No. 2, 
the U.S. Government should continue to engage deeply as a 
leader in international space fora, and look for ways to build 
common vision with emerging space nations. No. 3, the U.S. 
Government should ensure there's adequate funding and mandates 
allocated to improve space situational awareness, and develop 
concepts related to space traffic management. As noted in the 
seminal Outer Space Treaty, space is the providence of all 
humankind. I spent much of the last 15 years performing 
academic research about the applications of space, using 
Africa, Latin America, and Southeast Asia, and studying their 
national space programs.
     Every country on Earth is a space country, but this does 
not mean that all countries enjoy equal access to the benefits 
of space. The countries that have been most active in pursuing 
space activity, including the United States, we are also the 
countries that have created the most risk for future 
sustainable space operations. That is why U.S. leadership is so 
important. We must take an integrated and long-term approach to 
defining space situational awareness, and ask questions about 
future trends. Where will objects be located in space in future 
operations? What are the impacts of currently crowded orbits? 
What is the demand from industry to use certain orbital 
regimes? Who are the new players in space? What are the 
sustainable options for expanding space activities? Our close 
collaborators in the International Space Station, especially in 
Europe and Japan, are actively innovating in methods to 
increase space sustainability through programs dedicated toward 
orbital debris removal, as well as better understanding SSA, 
and thinking about STM.
     Chair--Ranking Member Babin mentioned the idea of 
promulgating better practices in space, and one approach to do 
this is through a positive incentive not through government 
activity, but through non-government activity. I'm actually 
collating a team that's creating such an incentive system. It's 
called the Space Sustainability Rating. An international team 
is designing this rating that includes the World Economic 
Forum, the European Space Agency, Bryce Space and Technology, 
the University of Texas at Austin, as well as my institution at 
MIT.
     The Space Sustainability Rating will be a score that any 
satellite operator can apply to receive. As part of the process 
of creating the rating, we are engaging with many of the 
companies that are proposing unprecedented business models to 
its large constellation of satellites. We hope that governments 
will join us by promoting this methodology as a way to 
recognize responsible behavior in space. Here in the U.S., this 
work will be particularly relevant to those that are providing 
review of commercial space operations, especially the FAA 
(Federal Aviation Administration), NOAA, and FCC (Federal 
Communications Commission). Our activity is really aligned with 
the 21 guidelines for long term sustainability of outer space 
coming out of the U.N. COPUOS (Committee on the Peaceful Uses 
of Outer Space).
     As we've mentioned, there's also a need for further 
thoughts on space traffic management. My research team has 
performed a study showing the great interest of countries 
around the world, including Latin America, Africa, and in 
Eastern Europe, and their desire to be part of the dialog to 
design a future STM, so it's beneficial that the U.S. shows 
leadership by also building strong international relationships 
with these emerging space players to build a vision for global 
STM. Thank you.
     [The prepared statement of Ms. Wood follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Horn. Thank you, Dr. Wood. Dr. Stilwell?

       TESTIMONY OF DR. RUTH STILWELL, ADJUNCT PROFESSOR,

        NORWICH UNIVERSITY, SENIOR NON-RESIDENT SCHOLAR,

                    SPACE POLICY INSTITUTE,

                  GEORGE WASHINGTON UNIVERSITY

     Dr. Stilwell. Chairwoman Horn, Ranking Member Babin, 
distinguished Members of the Subcommittee, thank you for the 
opportunity to appear before you today. Working as an educator 
in public administration, and a researcher in the policy and 
regulatory aspects of space situational awareness and space 
traffic management, it is an honor to present come of my 
findings to you today. Space traffic management as a field of 
study represents a developing need to prevent collisions 
between objects in space both operating in, and transiting 
through, shared orbital domains. The reliance on the vastness 
of space as a mitigation for collision risk is no longer 
viable, given the current demand.
     The commercialization of space is not new, but its current 
rate of growth is unprecedented, and without structural change 
to the manner in which space is managed, the sustainability of 
the orbital domain is in question, both threatening national 
space assets, and constricting a vibrant and growing sector of 
our economy. Approaching the policy question of space traffic 
management as a decentralized safety service, rather than a 
regulatory function, can help provide clarity on the 
appropriate role of the international community, the 
government, and the private sector.
     The first question that arises in a discussion of space 
traffic management is who has the authority over the orbital 
domain? Quite simply, how do you regulate it if you don't own 
it? This is where we find clear parallels to the maritime 
domain. Safety on the high seas is assured by the application 
of international standards and agreements enforced by the State 
under whose flag the vessel operates. This aligns with the 
continuing supervision provisions of the Outer Space Treaty. It 
does not rely on one authority, but rather on the agreement of 
the seafaring nations of the world to enforce agreed-upon 
standards.
     While we consider the prevention of collisions in space 
when we discuss space traffic management, the sustainment and 
protection of the orbital domain includes issues that go beyond 
tactical collision avoidance, and have additional parallels to 
international maritime operations. Debris, contamination, and 
salvage affect both domains, and we can look to maritime law as 
a model. Debris mitigation and remediation guidelines to 
prevent major debris-generating events require international 
agreement to be sustainable and effective. By dividing the 
concept of space traffic management into its component parts, 
the policy framework and appropriate structures become more 
clear.
     The foundational element, space situational awareness, 
provides the information infrastructure upon which the safety 
regime can be built. This includes the detection, collection, 
and dissemination of information on the location and trajectory 
of natural and man-made objects in space. There are many 
sources of data, including space surveillance, observation, and 
operator data. Built on top of that is the Conjunction 
Assessment and Alerting Service. Currently both services are 
provided by a single entity through the U.S. Government, but we 
are already seeing commercial providers. This clearly 
illustrates that there is a path to a decentralized model for 
space traffic management, however, this will not occur 
organically.
     The transition from a service provided by the United 
States military on a no-cost basis to every satellite operator 
in the world to one where there are multiple providers who can 
provide conjunction assessment and alerting services tailored 
to the needs of individual operators requires a structured 
transition with deliberate oversight. The steps needed to build 
a decentralized STM include, one, the international agreement 
on standards of behavior for the purpose of collision 
avoidance. This is a government function that cannot be 
delegated. The creation of standards and best practices can, 
and should, be driven by industry, but transforming those 
standards and best practices into an international agreement is 
the role that only governments can fill. Two, processes and 
agreements for the collection, validation, and sharing of space 
situational awareness information, including space surveillance 
and operator information. This is a joint effort between 
government, industry, and academia to create a robust system 
that allows for inputs of space situational awareness data from 
multiple sources, including the intent data from operators. 
And, finally, the expansion of a market for conjunction 
assessment and alerting services.
     Under the current model, hundreds of thousands of 
conjunction messages are generated every year, resulting in 
only a few hundred avoidance maneuvers. The industry bears an 
enormous cost in evaluating these assessments. A competitive 
commercial market incentivizes investment in analytics tailored 
to customer needs. This is not a unique concept. It bears a lot 
of similarity to the National Weather Service and the GPS 
models. In both cases, services built primarily for government 
purposes are provided to the private sector, and support a 
robust and innovative commercial industry. Using these models 
can provide a path that allows for the transition from the 
current state to a decentralized global model that ensures a 
sustainable space environment.
     I thank you for your time and attention to this important 
issue, and I welcome your questions.
     [The prepared statement of Dr. Stilwell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Horn. Thank you, Dr. Stilwell, and thank you to 
all of the panelists for your incredible detailed, and 
comprehensive, and important testimony that really touches on 
the wide variety of issues. At this point we'll begin our first 
round of questions, and the Chair recognizes herself for 5 
minutes.
     Given the breadth, and the depth, and the scope of the 
issues that we're facing, I want to start out by asking all of 
the panelists this question, that, you know, while many people 
are eager--while there are many of us that are eager to settle 
the questions about U.S. agency roles, public, private, what 
is--how--what is that right balance? And we'll consider some 
more of those as we carry out our work. I think further 
identifying the scope and prioritizing the order of addressing 
the solutions is something that we need to start with, and I'd 
like to ask each of you, and we'll just go down the line, to 
briefly identify the most pressing issue, and how you would 
propose to address it. So we'll just start with you, Dr. 
Weeden.
     Dr. Weeden. Yeah. So--thank you for that. My most pressing 
issue is the policy question. I mean, that's partly because I'm 
a policy wonk, so I think that's, you know, I--lot of time on, 
but I currently think all the other issues, on improving the 
technology, improving the coordination, all hinge on that 
policy question. So, for me, the most important thing is that 
transition of the civil SSA responsibility to wherever it's 
going to go, and making sure that happens in a smooth manner, 
as mentioned by other ones, is the most important thing. And I 
believe all the other issues on improving the accuracy, and 
collecting more data, and better data fusion, and sharing, and 
collaboration all flows out of that decision.
     Chairwoman Horn. Thank you.
     Mr. Oltrogge. Yeah, thanks for that question. It's going 
to seem like I'm giving two most important things, but it's 
really one. It's transitioning to an entity that nurtures and 
facilities commercial innovation and better algorithms. This is 
something that we have not made good headway on, and I think 
that's crucial that we get that going. And, as I showed in my 
presentation, we need to get going now. Thank you.
     Chairwoman Horn. Thank you.
     Ms. Gabrynowicz. I believe it's going to be crucial to 
have an interdisciplinary response to SSA. I think we 
absolutely need international agreements to address a lot of 
the things that the panel said, but that has to rest on a 
bedrock of agreed upon technical standards, and the acceptance 
of providers to provide the data. And so there needs to be an 
interdisciplinary approach in which the technology is the 
foundation for implementing the policy and the law.
     Chairwoman Horn. Thank you. Dr. Wood?
     Ms. Wood. Thank you. I would like to actually sort of echo 
and repeat many of the things the other panelists said, so what 
I'd like to add is the idea of having integrated cross-agency 
commitment to the various needs, whether it's looking at 
improving research in an academic setting, and making sure it's 
funded, so we can bring in new technology and a new workforce, 
at the same time as having new operational activities. So I 
think what's needed is coordination across agencies.
     Chairwoman Horn. Thank you.
     Dr. Stilwell. I think it's clear that the first step needs 
to be establishing who is the lead authority for the government 
in advancing this work forward.
     Chairwoman Horn. Um-hum.
     Dr. Stilwell. When it comes to international agreement, 
that clarity is essential, and there is a lot of work going on 
in a lot of different places. Without a clear understanding of 
which agency is the lead agency, I think we will not make 
progress.
     Chairwoman Horn. Thank you very much. And, following on 
from that, I think the critical question is addressing the 
patchwork that we have identified as part of the problem of 
international coordination, Federal regulations, debris 
mitigation, all of the things that have been addressed. And I'm 
going to ask this for all the panelists, we'll just go back in 
the other direction, so you get to go twice in a row, Dr. 
Stilwell. And I was--I think it's interesting to look at other 
similar answers to this question--I'll be very quick about 
this--maritime as a model. And how do we move very quickly from 
this--like, this patchwork to create a holistic framework? Is 
it along the lines of the OSTP inter-agency process to 
identify, or--just very quickly, because I don't have much time 
left.
     Dr. Stilwell. I'll try and answer quickly. If that model 
is adopted, there are agencies that are experienced with it. 
The movement to commerce lets them follow models that already 
exist, so there's technical expertise within the department in 
how to bring in the industry information, developing it into 
international technical standards, and moving forward to 
international agreement. So the way you move quickly is assign 
the duty to those who have expertise in that area.
     Chairwoman Horn. Dr. Wood?
     Ms. Wood. I just want to repeat the same idea, that one of 
the key opportunities to see where expertise has been developed 
in small communities within the agencies, and to make sure that 
it is not lost in transition periods.
     Ms. Gabrynowicz. And whoever is chosen to be the lead 
agency, they have to have in-house capability commensurate with 
the task, and right now there is no one agency that has it all. 
They are going to have to--they can be the lead, but they're 
going to have good working relationships with other agencies 
and space expertise. NASA comes to mind. They're not a 
regulatory agency, they can't do it, but they've got to be in 
this loop.
     Chairwoman Horn. Thank you.
     Mr. Oltrogge. Yeah, also to sort of re-frame what Dr. 
Stilwell said, there are existing frameworks out there. It 
behooves us to take advantage of those, and get moving. But one 
of the studies that I led for AIAA (American Institute of 
Aeronautics and Astronautics) was a space traffic management 
governance study, what's out there, and what I found is really 
fascinating. There is a fabric, a continuum, of space 
governance out there. People like to say what's the right 
answer for a certain thing, but what I've found is that there 
are many instruments out there, and we need to get comfortable 
with employing all of those instruments, I think, to get to 
were we need to go.
     Dr. Weeden. Um-hum.
     Mr. Oltrogge. Thank you.
     Chairwoman Horn. Thank you.
     Dr. Weeden. So I just want to echo and reinforce that 
point made earlier. There are multiple potential answers. There 
is no agency that stands out as the clear favorite. Several 
possible, all have pros and cons, all could probably work. That 
makes it a little bit harder, because there's--again, there's 
no clear answer. And the same thing with these models. We have 
all written papers comparing space to maritime, or space to air 
traffic, or space to, you know, weather, or GPS sharing, and 
there is a little bit of analogy there, but it's also a little 
bit different. So, again, there is no one clear answer that 
fits we can just copy. We're going to have to pull the best 
parts from each one of those.
     Chairwoman Horn. Thank you very much. I'm well over my 
time. Recognize Ranking Member Lucas for 5 minutes.
     Mr. Lucas. Thank you, Madam Chair, and listening to those 
last responses, I'll turn to you, Dr. Stilwell. As a former air 
traffic controller, let's talk about whether we adopt for the 
space sector the air traffic control model to emulate, or the 
maritime domain. Expand on that, if you would, as being 
valuable to study, I guess is the way I should word that.
     Dr. Stilwell. I'm happy to. So there are significant 
differences between air traffic control and the concepts of 
space traffic management, the most significant of which is that 
air traffic control is predicted on a single entity having 
authority over a physical volume of air space, and that does 
not exist in the space domain. That brings rise to the maritime 
comparisons, where there are multiple authorities responsible 
for operators within the domain.
     So there are issues in air traffic control that are very 
useful, and very instructive, and that is particularly in the 
way that international standards are reached through the ICAO 
(International Civil Aviation Organization) process, that, 
without reaching new treaties or new agreements, new technical 
standards can be adopted by the world. And what we see in the 
ICAO process, which I would like to note is--seeks consensus, 
but is not a consensus-based process. It is an industry expert 
driven process to reach standards that can be implemented by 
all nations in the world.
     And what we see is that, when ICAO is able to develop 
guidance material, it is adopted because that material is 
valuable. It saves each individual country from trying to 
develop their own standards. So the value occurs long before we 
reach an enforceable standard, and at the guidance material 
level. So if we use that model, bringing in the industry 
expertise to develop what starts as guidance material, and 
evolves into a standard, we get a jump start on the process for 
reaching those international agreements.
     For us to develop behaviors in space that are applicable 
only in the U.S., or only in the U.S. or Western Hemisphere 
countries, doesn't get us where we need to go, in terms of 
space situational awareness and space safety. So there are 
instructive models, but it is not a plug and play. We cannot 
say let's do what we do with air traffic control, because the 
environment and the governance is dramatically different.
     Mr. Lucas. Several witnesses, Dr. Stilwell, discussed the 
challenges that DOD faced upgrading their SSA systems and 
software. And, despite considerable taxpayer funding and many 
years, they're still using the same system. Your testimony 
highlights how the private sector is much more innovative, and 
can adopt new challenges more quickly. How could a distributed 
governance model for space situational awareness allow 
operators of space assets to become customers of data, rather 
than simply users for data? And please elaborate on the 
importance of this difference as it pertains to innovation, and 
the burden on the taxpayers, I would note.
     Dr. Stilwell. It's quite important, because the--StratCom 
is very competent at fulfilling their mission, which is to 
protect U.S. assets in space, and they develop their systems to 
do that. The ancillary benefit to the space community of 
providing conjunction alerts is an additional service that's 
provided, and it's not intended to be tailored to meet a 
specific satellite operator's needs, nor should it be. As you 
mentioned, the taxpayers have no obligation to fund 
specifically tailored services.
     By dividing the two elements, the space situational 
awareness, where the infrastructure of data about the location 
and trajectory of objects in space, and the conjunction 
alerting services into two separate functions, we have the 
ability to use the infrastructure as a joint use infrastructure 
as--the same as we do with radars and navigational aids on the 
terrestrial domain, and allow the industry to use that data to 
develop more bespoke tools. You become a customer when you are 
paying for a service. If you are--there's a high cost to a free 
service, and the industry's experiencing that high cost in 
their cost of evaluating hundreds of thousands of conjunction 
alerts.
     If we allow a healthy competitive industry to develop in 
this layer between the operator and the infrastructure, then 
there is an opportunity to innovate quickly, and, in a 
competitive environment, there is an incentive to invest in the 
analytics to provide more precise information to those 
customers. There's not an incentive for government to invest in 
that because it is not the priority under the current model. 
The priority under the current model is to protect U.S. space 
assets in space, and StratCom does that very well.
     Mr. Lucas. Continuing with you, Doctor, in your opinion, 
are the problems of orbital debris, space situational 
awareness, and space traffic management, would you describe 
them as data issues or behavioral issues? And as you think 
about that, I guess I would ask are most operators good actors?
     Dr. Stilwell. It's a combination of the two. We--better 
data gives you better information so that you can make better 
decisions. So the question of whether it is a data issue or a 
behavior issue----
     Mr. Lucas. Um-hum.
     Dr. Stilwell [continuing]. Is not--they're not divorced 
partners. Your behavior is based on the data that you have 
available. However, in the question of good actors, you can 
only be a good actor if you have rules to follow. We can't 
expect someone to comply with a rule that doesn't exist. So 
when it comes to particularly a conjunction between two 
maneuverable satellites, who executes the maneuver is 
important, because there's an economic cost to executing that 
maneuver. It reduces your mission life of the satellite, and 
companies should not be expected to be altruistic in being good 
actors. They should expect--be expected to follow the rules. 
However, without any rules, it comes down to a negotiation, and 
we should not expect two commercial enterprises to ask each 
other to sacrifice their viability in the absence of any 
structure.
     In both the maritime and aviation domains we have right of 
way, and that answers that question for you. So the fact that 
you are a good actor does not negate the need for good rules, 
which we do not have.
     Mr. Lucas. Thank you, Doctor, and my time has expired, 
Madam Chair.
     Chairwoman Horn. Thank you, Mr. Lucas. The Chair 
recognizes Mr. Beyer for 5 minutes.
     Mr. Beyer. Thank you, and thank you all of you for being 
here today. The--this is my 6th year on the Committee, and we 
have often had glancing blows about space debris. This is 
really the first time we've really gone to the experts to 
really understand what's moving on it, so thank you very much, 
and Madam Chair, thank you.
     Mr. Oltrogge, you talked about the Kessler Syndrome, and 
the chain reaction effect, and specifically about the 
ecological threshold that, once passed, we cannot return. Even 
in a nuclear fissile thing, when there's a chain reaction, it 
gets to the end of the chain reaction. Why is--what would 
happen if you don't get back to the way things were? What's 
the--space look like, or the world look like?
     Mr. Oltrogge. Yeah. The Kessler Syndrome is a collisional 
chain reaction that just keeps going. Fact is, it will 
eventually reach some sort of stability point. The real issue 
with that stability point is by the time it does, you have a 
huge number of small particles out there, and fragments. And 
the overall space debris population is already quite large.
     Mr. Beyer. So many of the existing satellites will be 
taken out?
     Mr. Oltrogge. Yes. It puts satellites at risk. We are--
globally, and in commercial innovation market, working to track 
smaller and smaller things. There is a construct that operators 
today have when they fly their satellite. They look for 
information on what's coming close to them. The population, as 
was mentioned earlier, is about 22,000 publicly released 
objects. That could grow by a factor of 10, as I mentioned.
     Mr. Beyer. So let me pivot to Dr. Weeden. As you talked 
about active debris removal, we see--we're talking about carbon 
capture here all the time, in terms of carbon in the 
environment. They got rid of the trash--they're trying to get 
rid of the trash at Base Camp at Everest. People are trying to 
collect the plastic from the ocean. Why do you think NASA and 
DOD have been so reticent to develop ADR (active debris 
removal) technology?
     Dr. Weeden. Fully put, it's not their job. You know, so 
2010, the Obama Administration issued a national space policy 
that directed both NASA and the DOD to jointly develop the 
technology, but it is not a core mission area for either 
organization to manage the space environment or to remove space 
debris. And so, when they put it up against all the other 
priorities they have from all the things that are in their 
mission statements, they've been directed by Congress to do, it 
emerges an unfunded mandate, and there is not that 
organizational interest in taking care of----
     Mr. Beyer. So which organization should do it? Perfect 
world.
     Dr. Weeden. So that is--like the question we were 
discussing before about SSA, there are a couple of options. 
NASA could do it. My sense, though, is that they would be--it 
would be overwhelmed by all of the other things NASA's focused 
on, moon, Mars, science, all those things. I think in a perfect 
world I would probably marry this what I'll call space 
environmental management mission with the space traffic 
management mission, and the SSA mission, because they all share 
and overlap a little bit.
     Now, that does not mean that a government agency should be 
the one removing debris. I think there's a lot of room for the 
commercial sector to do there, but you should have the 
government agencies providing oversight of that, and helping 
incentivize that.
     Mr. Beyer. Great. Professor Gabrynowicz, it's--you're the 
first person I've ever met that has a satellite named after 
them, or an asteroid, rather. In politics we get bridges and 
schools and stuff after we're dead, but----
     Ms. Gabrynowicz. Mine is an asteroid.
     Mr. Beyer. Asteroid, it's very cool. But you talked about 
the now-installed draft code of conduct for outer space 
activities being stalled, and we look and say we can't ratify 
the International Criminal Court, or the law of the sea, or--
how are we going to--why is there so little interest not just 
in the United States, but globally, for these binding, 
seemingly necessary treaties?
     Ms. Gabrynowicz. I think there's two answers. One answer 
is that we are dealing with topics that do, by nature, involve 
the entire globe, so that makes it difficult for individual 
nations to understand truly what their responsibility is, and 
what they can afford to do. When you talk about the climate, 
when you talk about the oceans, no--that's bigger than any one 
nation can handle, and we're trying to figure out how to 
allocate responsibility.
     The second answer is, I think, and this is more of the law 
professor answer, is I think we're at a time where the nature 
of legal agreements is changing. It's like the early 15-, 
1600s, where the treaty appeared for the first time. Before 
that there were no such things as treaties. Treaties came into 
being because we needed them to come into being. It was the 
kind of agreement we had to do because nations were beginning 
to interact with one another. And, in fact, the nation-state as 
we understand it today didn't exist until then.
     There's something going on now globally where--with the 
constant shift of political power and economic needs, and 
shifting borders that is going to require different kinds of 
agreements, and we've been doing that since the end of World 
War II. We have declarations of principles, codes of conduct. 
There's all kinds of agreements that are trying to satisfy the 
needs that the formal treaty process has been able to satisfy 
for a number of years, and we're still working on it.
     Mr. Beyer. Well, thank you for painting the picture where 
we need to go. And I'd yield back, Madam Chair.
     Chairwoman Horn. Thank you, Mr. Beyer. Chair recognizes 
Mr. Posey.
     Mr. Posey. Thank you, Madam Chair, for holding this 
hearing on the challenges affecting the current Space 
Situational Awareness Program. The present Space Policy 
Directive 3 is the policy to improve the SSA and space traffic 
management through broad interagency coordination. Now, one of 
the goals is to transfer the space debris repository from the 
Department of Defense to the Department of Commerce so 
hopefully DOD can focus on its mission of protecting the United 
States and our allies, and the Commerce Department can focus on 
space debris with the expected launch increases.
     Part of this process involves setting standards. The 
National Institute of Standards and Technology is currently 
working on the best practices to encourage space safety and 
innovation. That's a really good thing. And according to Mr. 
Kevin O'Connell, Director of the Office of Space Commerce of 
the Department of Commerce, these new standards are in part key 
to making sure that the United States remains the flag of 
choice for space entrepreneurs. I think we all want to do that.
     Dr. Stilwell, with the number of launches expected to 
increase this year, space traffic management is important to 
our space program, and vital to our national security. How do 
you think SPD-3 will allow for more launches to occur in a safe 
manner?
     Dr. Stilwell. In my experience, SPD-3 has been very well 
received by the space community, and that there is a lot of 
enthusiasm for those concepts to move forward in order to 
facilitate growth and action. It's important that, as we talk 
about debris mitigating behaviors and active debris removal, 
that we not set new entrants up for a situation where they're 
designing a launch that doesn't meet standards that will be 
developed shortly after, or even years after. If we can develop 
those standards early, we support that industry, we support 
that growth, and we create an environment where people know 
what their target is.
     Specific questions about end of life access, so that we 
don't have two dead satellites that are heading toward each 
other, that--honestly, having better data about their collision 
doesn't make the system safer. It just makes us know better 
that two non-maneuverable objects might collide. What we need 
to do is reduce the number of non-maneuverable objects that 
remain in space. And as a design function for the industry, 
they need to know what that expectation is. So there are a 
number of elements within SPD-3 that set us down the path to 
giving predictability to a growing industry, and that's a very 
important part to support industrial growth.
     Mr. Posey. If you just had to guess, what do you think 
some of the suggestions would be?
     Dr. Stilwell. The 25-year rule is a very long rule. That's 
a long time to leave your objects in space. It doesn't take 
advantage of the technological innovation that has occurred 
since that rule was put into place. How you de-orbit your 
satellite at end of life, there are a lot more options now than 
when those concepts were developed. Those are important, and 
also the removal of large objects. There may be a very clear 
path that says you have an obligation, if you leave a large 
object in orbit, for the future active debris removal when that 
becomes available.
     Mr. Posey. I would hope that we would see that. Do you 
think it's realistic to require internationally that every 
single satellite that's launched have a solid plan for how to 
deactivate that satellite, and remove it from space?
     Dr. Stilwell. I do think it's realistic, and the interest 
of the international community is the same as ours. Often in 
the space discussions people say, well, would China do this? 
China, as an emerging space-faring nation, has the same, if not 
a growing, interest in ensuring the sustainability of space. 
There is an interest from every country that wants to be able 
to exploit the opportunities that space provides to ensure that 
that is available, that it is not a high-risk environment.
     So the beauty of working in the space industry is it tends 
to be non-partisan and non-controversial. We want a lot of the 
same things. The international community wants that as well. We 
don't have these conflicts where they--where people are saying 
no, let's do nothing. Everybody wants somebody to do something, 
and the U.S. is in the perfect position to take that leadership 
role.
     Mr. Posey. That's great. I hope we do. Thank you.
     Chairwoman Horn. Thank you very much. Chair recognizes the 
gentleman from Colorado, Mr. Perlmutter.
     Mr. Perlmutter. Thank you. It's a busy afternoon, so I 
missed a couple of the questions, but just sort of piggybacking 
on what you and Mr. Posey were just talking about, Professor 
Stilwell and Professor Gabrynowicz, these questions are to the 
two of you, because I'm really trying to understand the legal 
framework here, and whether the law of the sea is actually 
expressed in any of our treaties, and how, if it isn't, how we 
get there to put some kind of structure in place. You say 
everybody wants to do something, but we also know that there's 
national security issues. You know, we've got some satellites 
up there we don't want anybody to know about, or, you know, 
technology within it.
     So how would you both suggest we get to a framework--and I 
think you both talked about debris, contamination, and salvage 
that might otherwise be expressed in the law of the sea? How do 
we get from here to there?
     Ms. Gabrynowicz. First of all, let's reach an agreement on 
salvage. Right now there is no legal right to salvage in space, 
and there's a very good reason for that, and that's because 
when the treaties were being negotiated, neither the Soviet 
Union nor the United States wanted to give the other party an 
excuse to grab their space object and reverse engineer it. So 
salvage----
     Mr. Perlmutter. But don't we still have a little bit of 
that problem today?
     Ms. Gabrynowicz. You asked for a legal answer.
     Mr. Perlmutter. OK, all right.
     Ms. Gabrynowicz. OK. Remember, even during the height of 
the cold war, we reached agreements with the Soviet Union 
because we had to, because it was in both our interests. We 
would not have space law today if the Soviet Union and the 
United States didn't agree on the treaties. The confidence 
building measures like the hotline agreement, we can do those 
things. If we could do that during the height of the cold war, 
there's no reason why we can't do those things now. All we have 
to do is find things where there is common interest, and then 
get serious about putting the political will behind it. It's 
not all about, you know, hugging, and airy-fairy, and all that 
kind of stuff. It's pragmatic. We need to----
     Mr. Perlmutter. All right. So----
     Ms. Gabrynowicz [continuing]. Save out satellites.
     Mr. Perlmutter [continuing]. We--does somebody have to 
call to convene a treaty conference? Is that where we are? Is 
that what needs to be done? Or can we do it one on one with 
China, one on one with----
     Ms. Gabrynowicz. You can do it any way you think the 
avenue is going to work for you. If I were queen of the world, 
I would say which avenue is going to be the most productive? I 
think the most--the beginning of the most productive is you 
talk to nations who have as much to lose in space as you do, 
and then you sit down and say, look, let's stop blaming each 
other for the moment, but the debris caused by the X incident 
and the Y incident are things we can't do again in the future 
if we both want to continue our space program, so let's create 
some rules of the road.
     Mr. Perlmutter. So, Professor Stilwell, does NASA convene 
this, does the International Association of Insurance Agencies 
convene this? Who--how do we get this going? Because everybody 
on this panel seems to be of one mind about we'd better get 
busy here.
     Dr. Stilwell. This is a State Department function. It's 
international diplomacy, and Professor Gabrynowicz gave a good 
description of mutually assured destruction, and that's a 
powerful motivator. And we have that in space right now because 
if the space environment becomes unsustainable, there are 
tremendous costs for not only the space-faring nations of the 
world, but, as Dr. Wood pointed out, every country is a space 
country. So the U.N. Office of Outer Space Affairs has the 
committee on the peaceful uses of outer space. They have 
mechanisms available. What we need is the political will to 
start moving this forward.
     Mr. Perlmutter. And you would suggest that the law of the 
sea is a common denominator, something that we're all 
comfortable--we, the world, is comfortable with the general 
parameters of maritime law?
     Dr. Stilwell. And it has evolved over hundreds of years in 
a very constructive way, and illustrates that, even if you 
don't have a ratified treaty, countries comply with the 
provisions. And that's an important element as well.
     Ms. Gabrynowicz. And may I add, if you read ``The Shadow 
War,'' James Clapper also says we need the law of the sea for 
space, and a number of his colleagues as well. So it's there.
     Mr. Perlmutter. OK. I thank you all for your testimony 
today. I think you have made an impression on--certainly me, 
and I thank you. And I yield back.
     Chairwoman Horn. Thank you. The Chair recognizes Mr. 
Olson.
     Mr. Olson. I thank the Chair, and welcome to our five 
witnesses. Well, low Earth orbit is getting real crowded. This 
SSA and STM started on October 4 of 1957 with the launch of the 
Sputnik 1 satellite. Now, challenge is there because she was 
powered for maybe a week or two, came down after 21 days, no 
collision chances up there in orbit, but that started then. 
Right now, though, that world has changed, as you all know. We 
have over 9,000 satellites up there orbiting right now. Almost 
2/3 are dead, out of fuel, mission's complete. 1/3 are actually 
viable right now.
     We do have an idea what happens if we have a collision. 
Intentional collisions with China anti-satellite missile firing 
I guess it looks right around 2007. Our debris, in that graph 
you put up there, Dr. Weeden, doubled almost overnight with 
that missile shot, and that was intentional. You all scared me 
pretty earlier talking about the crisis over Pittsburgh, 
Pennsylvania. Those two satellites, coming at each other about 
32,000 miles rate of closure, came about the width of this room 
from a collision. 500 miles over Pittsburgh, Pennsylvania, 
almost have a collision the size of this room. That'd have been 
catastrophic.
     Having grown up about two miles from the Johnson Space 
Center, my main goal is to make sure that those human beings 
who have been there now for 20 straight years on orbit every 
single day do not have an impact from some satellite debris, 
that we control their safety. And it's not just for America. We 
are now the world's space travelers. China's doing a little 
bit, but us, Russia, ESA (European Space Agency), we are 
dominating space flight to the entire world, and so I want to 
make sure we're proactive instead of reactive with this debris 
field that's growing. That means SSA is proactive. That's what 
it should be. STM is kind of reactive, and so I think nothing 
helps us more with being proactive than artificial 
intelligence. I'm the co-Chairman of the House AI Caucus, and 
so my question for all of you is what role does AI play in the 
world of SSA? Dr. Stilwell?
     Dr. Stilwell. I'm not an expert in artificial 
intelligence, and I think it's only responsible to defer to 
those who are.
     Mr. Olson. Dr. Wood?
     Ms. Wood. Thanks so much for the introduction and for the 
questions. I want to highlight one of the things we've been 
discussing is the practices, and what it means to have healthy 
practices that reduce the uncertainty. So this began actually 
during the design phase of the satellite before it even goes to 
space. There are actions operators can take, including how they 
use tools like artificial intelligence, to understand how 
they're going to be the best operator they can, how they're 
going to know where their satellite is, share that, hopefully, 
with their own government, and with other operators through 
groups like the Space Data Association.
     Then some teams are interested in using SS--artificial 
intelligence to help figure out how to operate their satellite. 
It's actually an emerging technology, and it's interesting, but 
it also creates confusion, meaning if you operate your 
satellite, and you use an algorithm partly informed by 
artificial intelligence to plan when you want to maneuver from 
one orbit to another, that could be interesting technically, 
but it also creates more uncertainty for other operators around 
you to know where you're going to be at a given time.
     So, actually, I think it's an open academic research 
question and operational question, but certainly we do, as the 
space community, want to take advantage of the benefits of 
these tools. So I think overall we want to say operators should 
be incentivized both by government requirements as well as by 
peer pressure among the commercial community to do what they 
can in the design phase and in the operation phase to be as 
transparent as possible. That means better communicating where 
you are, then having the right physical objects on your 
satellite so you can track yourself. We need to be able to 
identify and track objects. But we can also use artificial 
intelligence as we try to understand the complex behavior of 
satellites in space, so multiple answers.
     Mr. Olson. Thank you. Ms. Gabrynowicz?
     Ms. Gabrynowicz. Remembering I'm a lawyer and not a 
scientist, I agree with Dr. Stilwell that you need to ask AI 
experts. But, from a legal perspective, two of the most 
important things you're going to have to deal with if you're 
going to be using AI is intellectual property rights and 
liability.
     Mr. Olson. Mr. Oltrogge? If I pronounced----
     Mr. Oltrogge. Thank you. Yes, you did. Let's see. I'm a 
person who feels that a holistic approach is very important 
here. We have to try and address the threat of space debris 
through all avenues. AI is a very important one, and I think it 
needs to be a heavy area where we do research. The issue, 
though, is that a lot of the data that would feed that AI, I 
feel, today is not out there, and it's just not to the level 
where it can be operationalized yet. So all across we need to 
pursue.
     Mr. Olson. Thank you. Dr. Weeden?
     Dr. Weeden. Yeah, I just want to echo what Dan said, and 
say the same thing. A lot of what we call AI is actually 
machine learning algorithms, and a lot--and they're essentially 
only as good as the data you feed them. And, to echo what Dan 
just said, we don't have the underlying data in a point where 
we have enough of it, we understand its precision, its 
accuracy, its confidence. We don't really understand to the 
point where I would feel confident to feed that into an 
algorithm at this point in time. So I think we start with 
fixing the data, get a better handle on that, and then, yes, I 
think we're going to have to move to an area where we adopt 
things like machine learning, other things, to help improve--
situation.
     Mr. Olson. I'm out of time. On behalf of our Chairwoman, 
can you all say hook them? Anybody?
     Dr. Weeden. I'm from New York, I'm sorry.
     Mr. Olson. I yield back.
     Chairwoman Horn. I thought you would've learned your 
lesson, given that you still owe me a bunch of tamales. So, you 
know, eventually.
     Mr. Olson. They're coming.
     Chairwoman Horn. OK. I'm holding you to that.
     Mr. Olson. La Cucina.
     Chairwoman Horn. I'm ready. Well, thank you all so much, 
to the witnesses. This has been an incredibly informative and 
helpful hearing, I think, to lay out the expanse of the 
challenges we're facing, and we're about the wrap up. There's 
one small question I want to close out with, because there's 
much more that we'll follow up with. But the 25-year rule that 
was just discussed, I want to circle back on that because--and, 
Dr. Wood, I'll direct this to you, and if anyone else has 
anything, we can add to it, but the--there was recently--in 
December of 2019 there was a NASA-led interagency task force 
that talked about updated standard practices that still 
included the 25-year rule, which seems to be very counter to 
all of the things that we've been talking about here. So I'd 
like to hear from you what the impact of these standards are 
going to be, likely, on the space community, and how widely 
they're being adopted or perceived.
     Ms. Wood. Thanks so much for the opportunity. You know, I 
think one thing we haven't done enough today is talk about how 
there are different ways to operate, depending on which 
altitude you're in in space, and so we should think about how 
we might require or expect different behavior from operators 
somewhere in the 400 to 600 kilometer location, which is very 
popular for certain low Earth orbit missions, versus the medium 
Earth regime, versus geostationary. So I think we really want 
to target our advice, or our behavior expectations, depending 
on where you are, and ask what's been the historic usage of an 
area. And not just are we going to have the Kessler Syndrome, 
but is that particular altitude of particular interest and 
popularity, and therefore it requires special concern, and 
special rules?
     So, of course, with our space sustainability rating, what 
we're trying to do is actually encourage operators to do better 
than what's required by current law, so we would hope, even if 
a government requires 25 years, that they would see it as 
actually a commercial benefit to perform better, to actually 
get their satellite out of orbit, especially if they're in an 
orbit where they are known that they're sharing it with a lot 
of other commercial operators. So that's part of what we do, we 
calculate both--how popular is that orbit, how much is there--
already been a use of that orbit? And that's drawing from the 
techniques developed by the European Space Agency partners, and 
then we ask what will be the likely benefits of removing your 
satellite from that particular orbit, not in general, because 
that orbit's popular, or because there's already a lot of 
satellites there. So when we ask what's the importance of 
removing your satellite, we should also ask what's already been 
happening historically in that orbit, and why is it so 
important that your particular mission will make room for 
future missions in that orbit.
     But I do think there's an opportunity, and there's a lot 
of consensus among the technical experts that it is feasible to 
remove satellites faster than 25 years in many cases, 
especially in orbits that area already popular, that already 
have historic--laden with debris, and so therefore it behooves 
us, both by voluntary choice, as well as by government action, 
to really move toward shorter times in orbit beyond the mission 
lifetime. Thank you.
     Chairwoman Horn. Yes, Dr. Gabrynowicz?
     Ms. Gabrynowicz. Again, speaking as a lawyer, I have no 
opinion as to whether 25 or some other number of years makes a 
better rule, but I will say we call it a rule, but it's not 
legally binding. The only entity who is legally bound by the 
25-year rule is NASA. Unless the 25-year rule goes through the 
APA (Administrative Procedure Act) rulemaking process, it is 
not binding on any other Federal agency. Other Federal agencies 
have said, we will try to abide by this, but there is no legal 
requirement that they do so, and there certainly is no 
requirement outside of the United States for anybody else to be 
bound by the 25-year rule. And if you change it to 5 years or 
10 years, that's still going to be the situation.
     Mr. Oltrogge. Yeah.
     Chairwoman Horn. Go ahead.
     Mr. Oltrogge. So I'm founder of the Space Safety 
Coalition. We have 37 space organizations who have joined to 
develop best practices, and also align with international best 
practice, but develop our own aspirational ones over and above 
what the international consensus and documents are. So orbit 
lifetime there, aspirationally, we seek, in that document, to 
be done in 5 years. Get your satellite out of orbit 5 years--
within 5 years of the end of your mission. So aspirational best 
practices in the commercial arena, where operators do want to 
do the right thing, are a very powerful thing, in that, in 
advance of international consensus, the commercial operators 
and companies can strive to do better. So that's, I think, a 
very positive thing.
     In terms of the 25-year rule itself, developed in 1995, 
based on the then population, and the then analyses that were 
done, that was something that at the time seemed to be a 
reasonable compromise between the cost of immediately bringing 
your satellite out of orbit versus leaving it up there forever. 
So it's a compromise. The ODMSP (Orbital Debris Mitigation 
Standard Practices) that was just released last year, 2019, 
does something interesting, in that it still requires a 25-year 
rule, but it aspirationally adds that we should take these 
satellites out of orbit as soon as we can. Thank you.
     Dr. Weeden. Quickly just to add on to that, I want to 
touch on the point that was made about not having a blanket 
rule for everything. I think that is the regime we should be 
thinking about. Instead of 1, 25, 15, whatever, everything, we 
need to think about a tailored approach to different orbital 
regimes, because they are different.
     The second is to talk about enforcement. At the moment the 
European Space Agency is the only entity I know of that's 
monitoring who's complying with this. It's roughly around 50 to 
60 percent compliance with this existing 25-year rule, or 
suggestion. That's good, should be a lot better. So enforcing--
better enforcement through--it's going to come through national 
legislation. National policy is where it needs to be, as well 
as thinking about less of a blanket rule, more of a tailored 
approach.
     Chairwoman Horn. Thank you very much. Would you like to 
contribute to that? OK. I'm happy to--if you'd like. It's fine. 
I want to say thank you again. This is incredibly important, 
and informative, and further identifies the need for us to move 
quickly, to take action, and highlighting the multiple layers 
of challenges, and the need to be intentional and tailored in 
the way that we address this using incentives, some 
regulations, other voluntary--commercial--I think there's--
there are many different layers to this that can help us to 
address these issues. You have all touched on many of those 
areas, and we're very grateful, and we'll continue.
     Before the hearing closes, I want to make sure that we 
note that the record will remain open for 2 weeks, and for any 
additional statements from the Members, or any additional 
questions that the Committee might ask, I can almost assure you 
that we will have additional questions for the record, so we--
be prepared for those. But, again, this testimony was 
invaluable. I thank my colleagues on both sides of the aisle 
for the importance of this issue, and the witnesses are 
excused. The hearing is now adjourned.
     [Whereupon, at 4:12 p.m., the Subcommittee was adjourned.]

                                Appendix

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
